No.

In The

Supreme Court of the United States
JERRIS M. BLANKS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I certify that I have mailed a true and correct copy of Mr. Blanks’ motion for
leave to proceed in forma pauperis and petition for a writ of certiorari via the
United States Postal Service, first-class postage prepaid, to counsel for the
respondent: Hon. Brian H. Fletcher, Acting Solicitor General, Room 5614,
Department of Justice, 950 Pennsylvania Avenue, N.W., Washington, D.C., 20530.
JONATHAN STERNBERG
Counsel of Record
JONATHAN STERNBERG, ATTORNEY, P.C.
2323 Grand Boulevard #1100
Kansas City, Missouri 64108
Telephone: (816) 292-7020
Facsimile: (816) 292-7050
jonathan@sternberg-law.com
Counsel for Petitioner
August 19, 2021

